SIGAR
     Njmbjm                      Special Inspector General for
                                  Afghanistan Reconstruction




                                          SIGAR 14-95 Financial Audit




         Department of State’s Demining Activities in
         Afghanistan: Audit of Incurred Costs by Mine
         Clearance Planning Agency




                                            SEPTEMBER
                                                     2014
SIGAR 14-95-FA/MCPA
                                                     September 2014



SIGAR
                                                     Department of State’s Demining Activities in Afghanistan: Audit of
                                                     Incurred Costs by Mine Clearance Planning Agency
                                                     SIGAR 14-95-FA

Special Inspector General for                       WHAT THE AUDIT FOUND
Afghanistan Reconstruction                          RMA Associates, LLC (RMA) identified four internal control deficiencies and one
                                                    instance of noncompliance in its audit of costs incurred by the Mine Clearance
WHAT THE AUDIT REVIEWED                             Planning Agency (MCPA). For example, MCPA lacked documentation to support its
From April 1, 2008, to March 31, 2013, the          comparative price analysis and purchase requisitions, lacked purchase requisition
Department of State’s Bureau of Political-          documents, and did not provide business supplier identification. Specifically, for
Military Affairs’ Office of Weapons Removal and     costs incurred under three grants, MCPA did not complete its internal control
Abatement (PMWRA) issued five grants to the         process for price analysis in compliance with the Federal Acquisition Regulation for
Mine Clearance Planning Agency (MCPA)—an            five equipment procurements. Completing that process would have ensured that the
Afghanistan-based international humanitarian        U.S. government received the best value for its money. In eight instances, MCPA
demining organization—for demining activities       lacked requisite documentation to validate that its management signed and/or
in Afghanistan. Totaling over $13 million, these    properly coded expense statements. Also, MCPA could not provide purchase
grants were to provide support for the removal      requisitions forms for four procurement transactions. Finally, MCPA did not collect
of land mines and unexploded ordnance in            from suppliers required business registration information or a national identification
Afghanistan.                                        for four procurements. These are generally accepted forms of identification that
                                                    provide some assurance that a vendor is credible and will use U.S. government
SIGAR’s financial audit, performed by RMA
                                                    funds appropriately.
Associates, LLC (RMA), reviewed $13.4 million
in expenditures charged to the five grants from     As a result, RMA identified $688,206 in unsupported costs (costs not supported by
April 1, 2008, through March 31, 2013. The          sufficient documentation to allow auditors to determine their accuracy and
objectives of the audit were to (1) identify and    allowability). RMA did not find any ineligible costs (costs prohibited by the grant,
report on significant deficiencies or material      applicable laws, or regulations).
weaknesses in MCPA’s internal controls related
                                                              Category              Questioned Costs Total      Ineligible   Unsupported
to the grants; (2) identify and report on
                                                     Personnel                                      $16,149            $0           $16,149
instances of material noncompliance with the
terms of the grants and applicable laws and          Expendable Equipment                          $113,852            $0          $113,852
regulations, including any potential fraud or        Non Expendable Equipment                      $509,885            $0          $509,885
abuse; (3) determine and report on whether           Operating Expenses                             $48,320            $0           $48,320
MCPA had taken corrective action on prior            Total                                         $688,206            $0          $688,206
findings and recommendations; and (4) express
                                                    RMA identified and obtained previous audits of MCPA, but no findings were deemed
an opinion on the fair presentation of MCPA’s
                                                    pertinent to this audit.
Special Purpose Financial Statement. See
RMA’s report for the precise audit objectives.      In RMA's opinion, MCPA's Special Purpose Financial Statement presented fairly in all
                                                    material respects, revenues received, costs incurred, and the balance for the
In contracting with an independent audit firm
                                                    indicated period in accordance with requirements established by SIGAR.
and drawing from the results of a contracted
audit, SIGAR is required by auditing standards      A reconciliation of funds showed an outstanding balance of $50,337, which MCPA
to provide oversight of the work performed.         reported to the Department of State (State) on December 31, 2012. In May 2014—
Accordingly, SIGAR reviewed RMA’s audit             more than a year after the end of five grants—MCPA requested that State approve
results and found them to be in accordance          its use of the remaining funds. However, SIGAR is questioning the amount because
with generally accepted government auditing         the request, its possible approval, and any use of the funds fell well outside the
standards.                                          scope of the audit and the period of performance of any of the grants.


WHAT SIGAR RECOMMENDS
Based on the results of the audit, SIGAR recommends that State’s Grants Officer:
    1.   Determine the allowability of and recover, as appropriate, $688,206 in unsupported costs identified in the report.
    2.   Collect from MCPA the $50,337 due to the Department of State.
    3.   Advise MCPA to address the report’s four internal control findings.
    4.   Advise MCPA to address the report’s one noncompliance finding.

         For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
September 8, 2014


The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan


This letter transmits the results of our audit of costs incurred by the Mine Clearance Planning Agency (MCPA)
under five grants awarded by the Department of State (State).1 These grants for mine clearing operations in
Afghanistan were in support of State’s Bureau of Political-Military Affairs’ Office of Weapons Removal and
Abatement. The audit, performed by RMA Associates, LLC, covered the period April 1, 2008, through March 31,
2013, and expenditures of $13.4 million. Based on the results of the audit, SIGAR recommends that the
Grants Officer:
     1. Determine the allowability of and recover, as appropriate, $688,206 in unsupported costs identified in
        the report.
     2. Collect from MCPA the $50,337 due to the Department of State.
     3. Advise MCPA to address the report’s four internal control findings.
     4. Advise MCPA to address the report’s one noncompliance finding.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction




(F-034)




1Those five grants are: S-PMWRA-08-GR-004, S-PMWRA-09-GR-017, S-PMWRA-10-GR-009, S-PMWRA-10-GR-109, and
S-PMWRA-11-GR-012.
                                                                         SIGAR MCPA AUDIT




                        MINE CLEARANCE PLANNING AGENCY
                        Financial Audit of Costs Incurred Under Awards
              S-PMWRA-08-GR-004, S-PMWRA-09-GR-017, S-PMWRA-10-GR-009,
                      S-PMWRA-10-GR-109, and S-PMWRA-11-GR-012
                      For the Period April 1, 2008 through March 31, 2013
                         (With Independent Auditor’s Report Thereon)




RMA Associates 2014
                                                                         SIGAR MCPA AUDIT




Transmittal Letter


15 July 2014

Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202

Dear Sir/Madam:

RMA Associates, LLC (RMA) is pleased to submit our audit reports to the Special Inspector
General for Afghanistan Reconstruction’s audit of costs incurred over U.S. Department of State
grants to the Mine Clearance Planning Agency’s (MCPA’s) for the period April 1, 2008 through
March 31, 2013.

We have provided a summary of the work performed and of the results. Following the summary,
we have included our report on the Special Purpose Financial Statement, report on internal
controls, and report on compliance.

Thank you for providing us the opportunity to work with you to conduct the audit of MCPA.

Sincerely,




Reza Mahbod
President
RMA Associates, LLC




RMA Associates 2014
                                                                                                                           SIGAR MCPA AUDIT



Contents
Summary...................................................................................................................................................... 1
   Background ............................................................................................................................................. 1
   Objectives................................................................................................................................................. 2
   Scope ........................................................................................................................................................ 2
   Methodology ............................................................................................................................................ 2
   Summary of Results ................................................................................................................................ 3
   Review of Prior Findings and Recommendations ................................................................................ 4
   Summary of Management’s Responses................................................................................................. 4
Independent Auditor's Report on the Special Purpose Financial Statement ........................................ 5
Consolidated Special Purpose Financial Statement ................................................................................. 7
Notes to the Special Purpose Financial Statement ................................................................................... 8
Notes to Questioned Costs in the Special Purpose Financial Statement ................................................ 9
Independent Auditor's Report on Internal Control .............................................................................. 10
Independent Auditor's Report on Compliance ...................................................................................... 12
Schedule of Findings and Questioned Costs ........................................................................................... 13
Appendix A - Individual Award Special Purpose Financial Statements ............................................. 20
Appendix B – Management’s Response .................................................................................................. 25




RMA Associates 2014
                                                                         SIGAR MCPA AUDIT




Summary
Background
The Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with RMA
Associates, LLC (RMA) to perform a financial audit of the costs incurred under various grant
awards from the U.S. Department of State to Mine Clearance Planning Agency (MCPA) for the
period of April 1, 2008 through March 31, 2013.
The Department of State’s Bureau of Political-Military Affairs’ Office of Weapons Removal and
Abatement (PMWRA) awarded a series of grants totaling over $13 million to the Mine Clearance
Planning Agency to provide support for the removal of land mines and unexploded ordnance in
Afghanistan. See chart of audited grants below.
                             TABLE A: Summary of Audited Awards
                      Grant Number             Award        End Date        Amount
                                                 Date
           S-PMWRA- 08-GR-004                04/01/2008     03/31/2009     $1,500,000
           S-PMWRA-09-GR-017                 04/01/2009     03/31/2010     $2,300,000
           S-PMWRA-10-GR-009                 04/01/2010     03/31/2011     $4,000,000
           S-PMWRA-10-GR-109                 09/01/2010     12/31/2011     $1,610,000
           S-PMWRA-11-GR-012                 04/01/ 2011    03/31/2013     $4,000,000
           Total                                                          $13,410,000

MCPA is an indigenous Afghanistan-based International Humanitarian Demining Organization,
established under the auspices of the United Nations Office for the Coordination of Humanitarian
Assistance to Afghanistan in March 1990, as an implementing partner of the United Nations Mine
Action Program for Afghanistan. MCPA is registered as Non-Governmental Organization with the
Ministry of Economy of the Islamic Republic of Afghanistan and accredited by Mine Action
Coordination Center for Afghanistan.
MCPA is a specialized/professional organization in the fields of mine action surveys/research,
mine clearance operation, mine risk education, capacity building, and quality Management. MCPA
functions in the following mine action areas:
        Mine Action Surveys (technical and non-technical surveys)
        Manual clearance operation
        Mechanical Clearance operation
        Clearance through using mine detection dogs
        Explosive Ordnance disposal operation
        Battle area clearance operation




                                                                                              1
RMA Associates 2014
                                                                                 SIGAR MCPA AUDIT




Objectives
The following objectives were defined by SIGAR in the Performance Work Statement for
Financial Audis of Costs Incurred by Organizations Contracted by the U.S. Government for
Reconstruction Activities in Afghanistan:
Audit Objective 1 – Special Purpose Financial Statement
Express an opinion on whether the Special Purpose Financial Statement (SPFS) for the five audited
grants presents fairly, in all material respects, revenues received, costs incurred, items directly
procured by the U.S. Government and balance for the period audited in conformity with the terms
of the grants and generally accepted accounting principles or other comprehensive basis of
accounting.
Audit Objective 2– Internal Controls
Evaluate and obtain a sufficient understanding of MCPA's internal control related to the award;
assess control risk; and identify and report on significant deficiencies including material internal
control weaknesses.
Audit Objective 3 – Compliance
Perform tests to determine whether MCPA complied, in all material respects, with the award
requirements and applicable laws and regulations; and identify and report on instances of material
noncompliance with terms of the award and applicable laws and regulations, including potential
fraud or abuse that may have occurred.
Audit Objective 4 – Corrective Action on Prior Findings and Recommendations
Determine and report on whether the MCPA has taken adequate corrective action to address
findings and recommendations from previous engagements that could have a material effect on the
special purpose financial statement.
Scope
The scope of this audit included grants issued by the U.S. Department of State to MCPA for the
period from April 1, 2008 through March 31, 2013, and was limited to the matters and procedures
that have a direct and material effect on the SPFS. The grants subject to the audit are listed in the
table above. The audit included reviewing the financial records that support the SPFS to determine
if there were material misstatements, the SPFS was prepared in accordance with accounting
principles generally accepted in the United States of America, and the SPFS was presented in the
format required by SIGAR. Some records supporting the audit were located in Afghanistan, where
we used the services of a local firm.
Methodology
In order to accomplish the objectives of this audit, RMA performed substantive analytical
procedures and tests of details to obtain sufficient, appropriate evidence that all material costs incurred
are allowable, allocable, and reasonable under the terms of the awards and applicable costs principles.
RMA assessed the overall design and effectiveness of entity level controls and performed control



                                                                                                         2
RMA Associates 2014
                                                                              SIGAR MCPA AUDIT




activities transaction tests. We identified the applicable regulatory and requirement framework, and
incorporated this into our transaction cycle testing for efficiency. We identified previous audits, and
obtained existing reports. There were no prior findings noted in these reports.
Due to the location of MCPA and the fact that some supporting documents were located in
Afghanistan, we used the resources of locally based subcontractors to complete certain on-site audit
procedures, as deemed necessary.

Summary of Results
Upon completion of all audit procedures, RMA identified four findings considered significant
deficiencies in internal control, material weaknesses in internal control, and/or noncompliance
with rules, laws, regulations, or the terms of and conditions of the awards.
RMA issued an unqualified opinion on the Special Purpose Financial Statement. However, we
identified questioned costs as outlined below.
RMA also reported on both MCPA’s internal controls and compliance with terms of the award and
applicable laws and regulations. Two significant deficiencies in internal control were reported and
two findings related to matters of noncompliance. We questioned a total of $688,206 in costs.
The questioned costs are summarized in the following table.


                       TABLE B: Summary of Findings and Questioned Costs
  Finding         Determination        Matter           Questioned Costs           Cumulative
  Number                                                                         Questioned Costs
  2014-01        Significant      Procurement:                     $272,520               $272,520
                 Deficiency and   Incomplete
                 Non-             Price Analysis
                 compliance
  2014-02        Significant       Procurement:                   $353,924*                $553,007
                 Deficiency        Lack of Signed
                                   and Coded
                                   Documents
  2014-03        Significant       Procurement:                  $217,281**                $663,757
                 Deficiency        Missing
                                   Purchase
                                   Requisition
                                   Forms
  2014-04        Significant       Procurement:                    $ 24,449                $688,206
                 Deficiency        Obtaining
                                   Supplier
                                   Business
                                   Credentials
                        Total Questioned Costs                                             $688,206


                                                                                                     3
RMA Associates 2014
                                                                        SIGAR MCPA AUDIT




 *$73,437 in costs are questioned in multiple findings.
 **$106,531 in costs are questioned in multiple findings.

Review of Prior Findings and Recommendations
There were no findings and recommendations from previous engagements that could have a
material effect on the special purpose financial statement.

Summary of Management’s Responses
MCPA management provided formal responses to the audit report findings, which are shown in
full in Appendix B. MCPA agreed with the determination of audit findings and did not refute the
questioned costs.




                                                                                             4
RMA Associates 2014
                                                                           SIGAR MCPA AUDIT


Independent Auditor's Report on the Special Purpose Financial Statement

To the Mine Clearance Planning Agency Management
Kabul, Afghanistan

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202

Report on the Special Purpose Financial Statement

We have audited the Special Purpose Financial Statement (the “Statement”) of Mining Clearance
Planning Agency (MCPA) for the related grants for the period April 1, 2008 through March 31,
2013, and the related notes to the Statement.

Management’s Responsibility for the Special Purpose Financial Statement
Management is responsible for the preparation and fair presentation of the Statement in accordance
with accounting principles generally accepted in the United States of America and the terms of the
awards; this includes the design, implementation, and maintenance of internal control relevant to
the preparation and fair presentation of financial statements that are free from material
misstatement, whether due to fraud or error.
Auditor’s Responsibility
Our responsibility is to express an opinion on the Statement based on our audit. We conducted our
audits in accordance with auditing standards generally accepted in the United States of America
and Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether
the Statement is free of material misstatement. Those standards also require that the audit
organization have an external peer review performed by reviewers independent of the organization
at least once every three years. We subcontracted a portion of the audit to an independent chartered
public accounting firm licensed and located in Kabul, Afghanistan. That firm did not have an
external peer review, but did meet all other requirements. The work performed by our
subcontractor consisted of substantive fieldwork in Afghanistan. Our subcontractor was not
involved in the planning, directing or reporting aspects of the audit. The results of the audit were
not affected as we directed the procedures performed and reviewed the work completed by our
subcontractor.
An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Statement. The procedures selected depend on the auditor’s judgment, including
the assessment of the risk of material misstatement of the Statement, whether due to fraud or error.
In making those risk assessments, the auditor considers internal control relevant to the entity’s
preparation and fair presentation of the Statement in order to design audit procedures that are


                                                                                                  5
RMA Associates 2014
                                                                          SIGAR MCPA AUDIT




appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit
also includes evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the Statement.
Opinion
In our opinion, the Statement referred to above presents fairly, in all material respects, program
revenues, costs incurred and reimbursed, and items and technical assistance directly procured by
the U.S. Department of State for the indicated period in accordance with the terms of the
agreements and in conformity with the accounting principles generally accepted in the United
States of America.
Report on Other Legal and Regulatory Requirements
In accordance with Government Auditing Standards, we have also issued reports dated May 30,
2014, on our consideration of MCPA’s internal controls and on our tests of its compliance with
certain provisions of laws and regulations. The purpose of those reports is to describe the scope
of our testing of internal control over financial reporting and compliance and the results of that
testing, and not to provide an opinion on the internal control over financial reporting and
compliance. Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be considered in assessing the results of our audit.




May 30, 2014




                                                                                                6
RMA Associates 2014
                                                                                                                            SIGAR MCPA AUDIT




Consolidated Special Purpose Financial Statement
                                                              Mine Clearance Planning Agency
                                                        SPECIAL PURPOSE FINANCIAL STATEMENT
                                                               April 1, 2008 to March 31, 2013


                                                                                                                Questioned Costs
                                                           Budget             Actual      Ineligible            Unsupported      Total             Notes
Revenues                                                                      US$                                                                   2
S-PMWRA-08-GR-004                                          $      1,500,000   $ 1,500,000                                        $           -
S-PMWRA-09-GR-017                                          $      2,300,000   $ 2,300,000                                        $           -
S-PMWRA-10-GR-009                                          $      4,000,000   $ 4,000,000                                        $           -
S-PMWRA-10-GR-109                                          $      1,610,000   $ 1,610,000                                        $           -
S-PMWRA-11-GR-012                                          $      4,000,000   $ 4,000,000                                        $           -

Total Revenues                                             $ 13,410,000 $ 13,410,000                                             $           -

                                                           US$                US$
Costs Incurred                                                                                                                                       3
Personnel                                                         6,083,455          6,014,358              -           16,149   $        16,149
Field/Site Office Cost                                              362,221            169,815              -              -     $           -
Travel                                                            1,658,013          1,490,705              -              -     $           -
Team Training                                                         9,888              4,902              -              -     $           -
Expendable Equipment                                                747,225            858,789              -          113,852   $       113,852
Non Expendable Equipment                                          2,118,457          2,190,007              -          509,885   $       509,885
Premises                                                            431,152            520,221              -              -     $           -
Operating Expenses                                                1,826,610          1,970,837              -           48,320   $        48,320
Other Costs                                                         172,979            120,440              -              -     $           -
                                                                                           -                -              -     $           -
(Gain)/Loss                                                                             19,589              -              -     $           -     1(b)

Total Direct Charges                                             13,410,000         13,359,663 $            -   $      688,206 $         688,206   A- D

Indirect Charges




Total Costs Incurred                                       $ 13,410,000 $ 13,359,663 $                      -   $      688,206 $         688,206


Outstanding Balance (total revenue minus total costs)      $           -      $        50,337                                                        5


The accompanying notes to the Special Purpose Financial Statement are an integral part of this Statement.




                                                                                                                                                           7
RMA Associates 2014
                                                                            SIGAR MCPA AUDIT




Notes to the Special Purpose Financial Statement
Note 1. Summary of Significant Accounting Policies
         (a) Basis of Accounting
         The accompanying Special Purpose Financial Statement (SPFS) includes costs incurred
         under (awards) for the period April 1, 2008 through March 31, 2013. Because the SPFS
         presents only a selected portion of the operations of MCPA, it is not intended to and does
         not present the financial position, changes in net assets, or cash flows of MCPA. The
         information in the SPFS is presented in accordance with the requirements specified by the
         Special Inspector General for Afghanistan Reconstruction (SIGAR), accounting principles
         generally accepted in the United States of America, and is specific to the aforementioned
         cooperative agreements. As such, the SPFS does not contain any entries related to the other
         operations program that may have been recorded and included in the basic financial
         statements. Therefore, some amounts presented in this SPFS will differ from amounts
         presented in, or used in the preparation of, the basic financial statements.
         All amounts presented are shown in U.S. dollars (USD), the reporting currency of MCPA.
         Costs incurred in a foreign country and recorded in a foreign currency have been converted
         to USD consistent with MCPA’s foreign currency conversion policy.
         Expenditures reported on the SPFS are required to be presented in accordance with
         accounting principles generally accepted in the United States of America and, therefore,
         are reported on the accrual basis of accounting. Such expenditures are recognized
         following the cost principles contained in OMB Circular A-122, Cost Principles for Non-
         Profit Organizations. The SPFS, as presented, reflects all Federal Financial Report SF-
         425s submitted to U.S. Department of State as of March 31, 2013.
         (b) Foreign Currency Conversion Method
         All financial statements are prepared in USD. All financial transactions are converted into
         USD. MCPA’s multi-currency computer-based accounting system supports the conversion
         of all transactions to USD for reporting purposes. MCPA uses the United Nations monthly
         exchange rate. The conversion of transactions to USD resulted in minor exchange rate
         gains and/or losses during the award period, which are reported as such in the SPFS.
         Cumulatively an exchange loss of $19,589 is reported in the SPFS.
         (c) Questioned Costs
         There are two categories of questioned costs, ineligible and unsupported. Ineligible costs
         are those costs that are deemed to not be allowable in accordance with the terms of the
         Agreement and applicable laws and regulations. Unsupported costs are those costs for
         which inadequate supporting documentation was provided.




                                                                                                  8
RMA Associates 2014
                                                                         SIGAR MCPA AUDIT




Note 2. Revenues
As of March 31, 2013, MCPA has reported $13,410,000 in revenue for the period April 1, 2008
through March 31, 2013. MCPA has drawn a total of $13,410,000 from its U.S. Department of
State issued letter of Credit. Total expenditures of $13,359,663 was reported to U.S. Department
of State on all cumulative Federal Financial Report SF-425 forms through March 31, 2013.
Note 3. Costs Categories
The budget categories presented and associated amounts reflect the budget line items presented
within the final, U.S. Department of State approved award budget.

Note 4. Indirect Costs
MCPA has not claimed indirect costs for the period April 1, 2008 through March 31, 2013.
Note 5. Reconciliation of the SPFS and Subsequent Events
MCPA performed a reconciliation of funds as of March 31, 2013. There was $50,337 outstanding
fund balance under the grant awards. Management has performed a thorough investigation of
subsequent events through June 24, 2014, the date the final SPFS was available for issuance, and
identified no issues or matters that would materially alter the SPFS, as presented.

Notes to Questioned Costs in the Special Purpose Financial Statement
Note A. Questioned Costs: Procurement Proposal Analysis
Finding 2014-01 questions $272,520 in costs due to lack of documentation to support procurement
comparative price analysis.
Note B. Questioned Costs: Lack of Signed and Coded Documents
Finding 2014-02 questions $353,924 in costs due to lack of signed and coded documents for the
related expenditure. $73,437 in costs are questioned in multiple findings.
Note C. Questioned Costs: Missing Purchase Requisition Documents
Finding 2014-03 questions $217,281 in costs due to missing purchase requisition forms to support
equipment requests to the purchase committee. $106,531 in costs are questioned in multiple
findings.
Note D. Questioned Costs: Missing National ID
Finding 2014-04 questions $24,449 in costs due to missing business supplier identification.
Questioned costs for Note A through Note D above (after backing out costs in multiple findings)
total $688,206. These questioned costs for all findings were allocated to their respective cost
categories.




                                                                                              9
RMA Associates 2014
                                                                           SIGAR MCPA AUDIT




Independent Auditor's Report on Internal Control

To the Mine Clearance Planning Agency Management
Kabul, Afghanistan

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202

We have audited the special purpose financial statement of Mine Clearance Planning Agency
(MCPA) for the period April 1, 2008 through March 31, 2013, and have issued our report on it
dated May 30, 2014.
We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the special purpose financial statement is free
of material misstatement. Those standards also require that the audit organization have an external
peer review performed by reviewers independent of the organization at least once every three
years. We subcontracted a portion of the audit to an independent chartered public accounting firm
licensed and located in Kabul, Afghanistan. That firm did not have an external peer review, but
did meet all other requirements. The work performed by our subcontractor consisted of substantive
fieldwork in Afghanistan. Our subcontractor was not involved in the planning, directing or
reporting aspects of the audit. The results of the audit were not affected as we directed the
procedures performed and reviewed the work completed by our subcontractor.
The management of MCPA is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute, assurance that the
assets are safeguarded against loss from unauthorized use or disposition; transactions are executed
in accordance with management's authorization and in accordance with the terms of the
agreements; and transactions are recorded properly to permit the preparation of the special purpose
financial statement in conformity with the basis of accounting described in Note 1 to the special
purpose financial statement. Because of inherent limitations in internal control, errors or fraud
may nevertheless occur and not be detected. Also, projection of any evaluation of the structure to
future periods is subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and procedures may
deteriorate.
In planning and performing our audit of the special purpose financial statement of MCPA for the
period April 1, 2008 through March 31, 2013, we obtained an understanding of internal control.
With respect to internal control, we obtained an understanding of the design of relevant policies
and procedures and whether they have been placed in operation, and we assessed control risk in
order to determine our auditing procedures for the purpose of expressing our opinion on the special



                                                                                                10
RMA Associates 2014
                                                                           SIGAR MCPA AUDIT




purpose financial statement and not to provide an opinion on internal control. Accordingly, we do
not express such an opinion.
Our consideration of internal control would not necessarily disclose all matters in internal control
that might be material weaknesses under standards established by the American Institute of
Certified Public Accountants (AICPA). A significant deficiency in internal control exists when
the design or operation of a control does not allow management or employees, in the normal course
of performing their assigned functions, to prevent, or detect and correct misstatements on a timely
basis. A material weakness is a deficiency, or combination of deficiencies, in internal control,
such that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis. We noted four
matters involving internal control and its operation that we consider to be significant deficiencies
as defined above.




May 30, 2014




                                                                                                 11
RMA Associates 2014
                                                                          SIGAR MCPA AUDIT




Independent Auditor's Report on Compliance

To the Mine Clearance Planning Agency Management
Kabul, Afghanistan

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202

We have audited the special purpose financial statement of Mine Clearance Planning Agency
(MCPA) for the period April 1, 2008 through March 31, 2013, and have issued our report on it
dated May 30, 2014.

We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the special purpose financial statement is free
of material misstatement resulting from violations of agreement terms and laws and regulations
that have a direct and material effect on the determination of the special purpose financial
statement amounts. Those standards also require that the audit organization have an external peer
review performed by reviewers independent of the organization at least once every three years.
We subcontracted a portion of the audit to an independent chartered public accounting firm
licensed and located in Kabul, Afghanistan. That firm did not have an external peer review, but
did meet all other requirements. The work performed by our subcontractor consisted of substantive
fieldwork in Afghanistan. Our subcontractor was not involved in the planning, directing or
reporting aspects of the audit. The results of the audit were not affected as we directed the
procedures performed and reviewed the work completed by our subcontractor.
Compliance with agreement terms and laws and regulations applicable to MCPA is the
responsibility of MCPA's management. As part of obtaining reasonable assurance about whether
the special purpose financial statement is free of material misstatement, we performed tests of
MCPA's compliance with certain provisions of agreement terms and laws and regulations.
However, our objective was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.
The results of our tests disclosed one instance of noncompliance that is required to be reported
under Government Auditing Standards.




May 30, 2014




                                                                                               12
RMA Associates 2014
                                                                            SIGAR MCPA AUDIT


Schedule of Findings and Questioned Costs
Finding 2014-01: Procurement Proposal Analysis
Significant Deficiency and Non-compliance
Criteria: MCPA’s internal control policy for procurement price analysis states that a minimum of
three quotations will be obtained for purchases ranging from $2,500 - $150,000. A comparative
analysis statement is used to document the selection and “approval of the lowest quotation”.
In addition, FAR 15.404-1(a)(1) specifies that the objective of proposal analysis is to ensure that
the final agreed-to price is fair and reasonable, offering the best value to the Government. The
contracting officer is responsible for evaluating the reasonableness of the offered prices. FAR
15.404-4(c)(4)(ii) specifies that the contracting officer’s signature on the documentation
supporting determination of fair and reasonable price documents the contracting officer’s
determination that the statutory price or fee limitations have not been exceeded. OMB Circular
A-122 Cost Principles for Non-Profit Organizations, as the guidance presenting guidelines for
allowability of direct costs, requires that the grantee must comply with its established policies and
procedures.
Condition: We noted that for 5 equipment procurements, MCPA did not complete its internal
control process for price analysis. Failure to obtain the minimum quotes and prepare documented
comparative analysis is a departure from MCPA’s established policy.
In additional, because MCPA did not document the completed proposal analysis, these findings
represent non-compliance with the provisions of FAR 15.404 and OMB Circular A-122 as noted
above.
 Award Number               Condition                                                Questioned
                                                                                     Cost

 S-PMWRA-09-GR-             JV/154 - The contract for construction of the MCPA             $40,933
 017                        Mine Detection Dog facility at Charasiab Kabul for
                            was not supported by an approved comparative
                            statement identifying the Mohammad Taqi Husseini
                            Construction Company as the selected bidder.

 S-PMWRA-10-GR-             JV/52 - The purchase of a second hand caterpillar             $111,720
 109                        loader for was not supported by an approved
                            comparative statement identifying the selected
                            bidder. Two quotations were received from
                            different companies.

 S-PMWRA-10-GR-             BPV/225 - The purchase of demining equipment for               $49,054
 109                        was not supported by an approved comparative
                            statement identifying Rofi Industries as the selected
                            bidder. No other quotations were received.



                                                                                                  13
RMA Associates 2014
                                                                           SIGAR MCPA AUDIT




 S-PMWRA-10-GR-             JV/71 - The purchase of Motorola Radios for was               $24,383
 109                        not supported by an approved comparative statement
                            identifying Danimex as the selected bidder. No
                            other quotations were received.

 S-PMWRA-11-GR-             JV/04 - The purchase of a second hand Mercedes                $46,430
 012                        Benz truck for was not supported by an approved
                            comparative statement identifying the selected
                            bidder. Three quotations were received from
                            different companies.

 Total                                                                                   $272,520


Questioned Costs: $ 272,520
Effect: In the absence of an approved comparative statement, MCPA’s proposal analysis has not
been completed and authorized. Additionally MCPA may not have ensured that the U.S.
Government received the best value for its money.
Cause: Inconsistent implementation of MCPA internal control procurement policies and
procedures requiring comparative price analysis to ensure the U.S. Government receives the best
value for its money.
Recommendation: We recommend that MCPA strengthen the existing procurement policy for
proposal analysis by providing additional training to those responsible for approval, ensuring that
policies are consistently implemented.
Additionally, we recommend that MCPA provide the missing support to the U.S. Department of
State or refund the questioned costs of $272,520.
Management’s Response:
S-PMWRA-09-GR-017: JV/154. The contract for construction of the MCPA MDD Facility:
Management Response: MCPA obtained three quotations for the contract agreement and the
lowest priced one was selected. As the financial records were shifted to other offices several times
due to space limitations and even during the auditing period, the comparative statement was
unfortunately misplaced. MCPA affirms that it has been obtaining three quotations for every
procurement and practicing this policy. We affirm that this policy will be strictly followed in the
future.




S-PMWRA-10-GR-109: JV/52. The Purchase of second hand caterpillar loader:



                                                                                                 14
RMA Associates 2014
                                                                            SIGAR MCPA AUDIT




Management Response: According to our policies a comparative analysis should be performed,
but as this was the purchase of second hand machinery, we searched to find machines with the
same condition to obtain a comparative statement. Since there was great variation in the
conditions, a comparative statement was not completed. The two quotations were obtained for
MCPA’s understanding of the cost and work ability. After a comprehensive market analysis
MCPA’s Executive Committee decided to purchase the best one. MCPA is practicing the
comparative statement policy for the purchase of first hand items. This will also be followed in
the future for second hand items if they are comparable. MCPA is including the Executive
Operation Manager, Executive AFL Manager, Senior Logistic Manager and Mechanic in the
Executive Committee for the purchase of second hand vehicles.
S-PMWRA-10-GR-109: BPV/225. The Purchase of Demining Equipment:
Management Response: According to the United Nations Mine Action Center for Afghanistan
(UNMACA), Vest Ravelin (Rofi Denmark Made) and SD 450 Appron (Security Device
Zimbabwe Made) were common suppliers for demining materials used by all demining NGOs in
Afghanistan. We do not know if they are the sole suppliers of such materials. MCPA will research
if alternative suppliers are available internationally to make a comparison in the future.
S-PMWRA-10-GR-109: JV/71. The Purchase of Motorola Radios:
Management Response: MCPA will ensure that the policy is adhered to in the future.
S-PMWRA-11-GR-012: JV/o4. The Purchase of Second Hand Mercedez Benz Truck:
Management Response: Again, as this is the case of a second hand truck, we searched to find
machines with the same condition to obtain a comparative statement. Since there was great
variation in the conditions, a comparative statement was not completed. Two quotations were
obtained for MCPA’s understanding of the cost and work ability. After a comprehensive market
analysis, MCPA’s LCAP committee decided to purchase the best one. MCPA is practicing this
policy for the purchase of first hand items. This will also be followed in the future for second hand
items if they are comparable. MCPA is including the Executive Operation Manager, Executive
AFL Manager, Senior Logistic Manager and Mechanic in the Executive Committee for the
purchase of second hand vehicles.




                                                                                                  15
RMA Associates 2014
                                                                         SIGAR MCPA AUDIT




Finding 2014-02: Procurement: Lack of Signed and Coded Documents
Significant Deficiency
Criteria: MCPA’s internal control policies for financial reporting require that all transactions
occurring at off-site locations follow the same accounting documentation processes maintained at
headquarters, with appropriate management authorization and coding to identify the project and
cost categories.
Additionally, FAR 31.201-2(d) states that the auditee is responsible for accounting for costs
appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed have been incurred, are allocable to the contract, and comply with
applicable cost principles. OMB Circular A-122 Cost Principles for Non-Profit Organizations,
requires the auditee to maintain supporting documentation adequate to evaluate the determination
and allowability of costs incurred.
Condition: For eight equipment procurements, MCPA management did not sign and/or properly
code expense statements. For one equipment procurement, the comparative statement was not
signed and the expense statement was not signed or coded.
In addition, MCPA did not maintain proper supporting documentation as required by the criteria
above.
 Award Number                ID             Procured Item(s)                Questioned Costs
 S-PMWRA-10-GR-009           JV/14          Vehicles (8)                              $196,180
 S-PMWRA-10-GR-009           JV/79          Kitchen Utensils                              $587
 S-PMWRA-10-GR-109           BPV/265        Non-expendable      Demining               $81,561
                                            Tools
 S-PMWRA-10-GR-109           BPV/225        Non-expendable      Demining              $49,054*
                                            Tools
 S-PMWRA-10-GR-109           JV/71          Motorola Radios                           $24,383*
 S-PMWRA-10-GR-109           JV/33          Hand Held Radios                              $556
 S-PMWRA-10-GR-109           JV/15          Mobile Phone(5)                               $129
 S-PMWRA-11-GR-012           BPV/150        Generator                                    $1,474
 Total                                                                                $353,924
*Item is questioned in another finding.
Questioned Costs: $353,924
Effect: In the absence of authorized signatures and account coding, there is an increased risk of
the misuse of U.S. Government funds.


                                                                                              16
RMA Associates 2014
                                                                         SIGAR MCPA AUDIT




Cause: Inconsistent implementation of MCPA internal control policies for financial reporting
require that all transactions occurring at off-site locations follow the same accounting
documentation processes maintained at headquarters, with appropriate management authorization
and coding to identify the project and cost categories.
Recommendation: We recommend that MCPA implement a control, such as an authorization
checklist, to ensure that proper authorization and coding are completed. In addition, training of
off-site personnel should include a robust reinforcement of existing policies and procedures.
Additionally, we recommend that MCPA provide the missing documents to the U.S. Department
of State or a refund of the questioned costs of $353,924.
Management’s Response: All of MCPA’s projects usually start at one time during the months of
April and May each year when the workload is heavy. We are affirming that we normally properly
complete expense and comparative statements, but in this instance it was missed due to workload.
We note that the rest of the relevant papers such as PO, PR, comparative statement and GRR were
approved. We affirm that care should be taken to avoid such mistakes in the future.




                                                                                              17
RMA Associates 2014
                                                                       SIGAR MCPA AUDIT




Finding 2014-03: Procurement: Missing Purchase Requisition Forms
Significant Deficiency
Criteria: MCPA’s internal control policy for procurement requires that demand for equipment,
the identified need followed by a request, be documented by purchase requisition forms that are
submitted for approval. Purchases of $100-$150,000 require purchase requisition forms that are
approved by MCPA Logistics. Purchases over $150,000 must be approved by the Purchase
Committee.
Condition: For four procurement transactions, MCPA could not provide purchase requisition
forms. There was no committee action or approval noted. While purchase requisitions for the
noted procurements could not be provided, MCPA was able to provide signed purchase orders to
the suppliers for each transaction.
 Award Number               ID              Procured Item(s)               Questioned Costs
 S-PMWRA-10-GR-009          BPV/119         Demining Tools                          $ 110,750
 S-PMWRA-10-GR-109          BPV/265         Non-expendable     Demining             $81,561*
                                            Tools
 S-PMWRA-10-GR-109          JV/71           Motorola Radios                         $24,383*
 S-PMWRA-10-GR-009          JV/79           Kitchen Utensils                           $587*
 Total                                                                              $217,281
*Item is questioned in another finding.
Questioned Costs: $217,281
Effect: Missing steps in management approval increases the risk that items will be procured
outside of the scope of the award.
Cause: There was a failure in document retention controls. MCPA states that the forms were
misplaced.
Recommendation: We recommend that MCPA strengthen its existing document retention policies
and procedures to ensure that all required documents are maintained.
Additionally, we recommend that MCPA provide the missing support to the U.S. Department of
State or refund the questioned costs of $217,281.
Management’s Response: Some documents may have been misplaced due to internal shift of
files from one office to another. The rest of the procurement documents were made available. We
affirm that care should be taken to avoid such mistakes in the future.




                                                                                            18
RMA Associates 2014
                                                                          SIGAR MCPA AUDIT




Finding 2014-04: Procurement: Obtaining Supplier Business Credentials
Significant Deficiency
Criteria: FAR 31.201-3(b) states that costs are “allowable”, if among other things, they are
“reasonable” and follow “generally accepted sound business practices”. Additionally “the
grantees’ responsibilities is to the Government and the public at large”.
Condition: For four procurement transactions, the supplier information did not include business
registration information or a copy of the national ID (Tazkira). These documents are the generally
accepted forms of documentation in Afghanistan and demonstrate that MCPA is conducting
business with credible organizations.
 Award Number               ID               Procured Item(s)                Questioned Costs
 S-PMWRA-08-GR-004          BPV/89           Medical Supplies                              $913
 S-PMWRA-08-GR-004          BPV/15           Vehicle Maintenance                           $624
 S-PMWRA-10-GR-009          JV/31            Vehicle Rental                              $6,763
 S-PMWRA-10-GR-109          BPV/58           Life Insurance                             $16,149
 Total                                                                                  $24,449


Questioned Costs: $24,449
Effect: There is an increased risk of conducting business with those with terrorist ties. U.S.
Government funds could be used to indirectly fund terrorist organization.
Cause: MCPA states that some small businesses do not have the national ID. MCPA does not
have a policy to document the business registration information or national ID in order to
determine the vendor is credible and reduce the risk of U.S. Government funds being used
inappropriately.
Recommendation: We recommend that MCPA implement a policy to ensure and document that
it only does business with credible individuals and organizations. MCPA should demonstrate this
by obtaining a copy of the national ID or business registration information from all suppliers.
Additionally, we recommend that MCPA provide the missing support to the U.S. Department of
State or refund the questioned costs of $24,449.
Management’s Response: It was not previously our policy to obtain business registration
information or ID/Tazkira from suppliers or service providers. However, we recognize the
importance of this practice. In the future MCPA will request business registration information or
ID/Tazkira. Externally, the Bank Officer should also cross check the ID when the check is
presented, which should mitigate the risk of US money going to the wrong people. MCPA will
update its relevant SOPs/policies and include this as the essential criteria.


                                                                                               19
RMA Associates 2014
                                                                                                     SIGAR MCPA AUDIT




Appendix A - Individual Award Special Purpose Financial Statements

                                                 Mine Clearance Planning Agency
                                           SPECIAL PURPOSE FINANCIAL STATEMENT
                                                  April 1, 2008 to March 31, 2009


                                                                                                     Questioned Costs
                                                        Budget          Actual      Ineligible       Unsupported      Total
Revenues                                                                US$
S-PMWRA-08-GR-004                                       $     1,500,000 $ 1,500,000 $            -   $           -    $        -

Total Revenues                                          $     1,500,000 $        1,500,000 $     -   $           -    $        -

                                                        US$                US$
Costs Incurred
Personnel                                                        534,430          490,080 $      -   $          -     $        -
Field/Site Office Cost                                               -                    $      -   $          -     $        -
Travel                                                           147,411          127,590 $      -   $          -     $        -
Team Training                                                        576            1,016 $      -   $          -     $        -
Expendable Equipment                                              51,956           61,662 $      -   $          912   $        912
Non Expendable Equipment                                         533,690          564,435 $      -   $          -     $        -
Premises                                                          50,791           44,183 $      -   $          -     $        -
Operating Expenses                                               162,782          194,302 $      -   $          624   $        624
Other Costs                                                       18,364           15,917 $      -                    $        -

(Gain)/Loss                                                                           815 $      -   $           -    $        -

Total Direct Charges                                    $     1,500,000 $        1,500,000 $     -   $        1,536 $         1,536

Indirect Charges




Total Costs Incurred                                    $     1,500,000 $        1,500,000 $     -   $        1,536 $         1,536


Outstanding Balance (total revenue minus total costs)   $            -     $          -




                                                                                                                                   20
RMA Associates 2014
                                                                                                     SIGAR MCPA AUDIT



                                                 Mine Clearance Planning Agency
                                           SPECIAL PURPOSE FINANCIAL STATEMENT
                                                  April 1, 2009 to March 31, 2010


                                                                                                     Questioned Costs
                                                        Budget          Actual      Ineligible       Unsupported      Total
Revenues                                                                US$
S-PMWRA-09-GR-017                                       $     2,300,000 $ 2,300,000

Total Revenues                                          $     2,300,000 $        2,300,000

                                                        US$                US$
Costs Incurred
Personnel                                                     1,232,735          1,191,086                          $            -
Field/Site Office Cost                                                                                              $            -
Travel                                                           297,273          286,500                           $            -
Team Training                                                      1,296            1,392                           $            -
Expendable Equipment                                             159,407          195,528                           $            -
Non Expendable Equipment                                         117,091          137,655                           $            -
Premises                                                         107,091          100,099                           $            -
Operating Expenses                                               349,357          365,593            $       40,933 $         40,933
Other Costs                                                       35,750           22,147                           $            -
                                                                                                                    $            -
(Gain)/Loss                                                                                                         $            -

Total Direct Charges                                    $     2,300,000 $        2,300,000 $     -   $       40,933 $         40,933

Indirect Charges




Total Costs Incurred                                    $     2,300,000 $        2,300,000 $     -   $       40,933 $         40,933


Outstanding Balance (total revenue minus total costs)   $            -     $          -




                                                                                                                                 21
RMA Associates 2014
                                                                                                     SIGAR MCPA AUDIT



                                                 Mine Clearance Planning Agency
                                           SPECIAL PURPOSE FINANCIAL STATEMENT
                                                  April 1, 2010 to March 31, 2011


                                                                                                     Questioned Costs
                                                        Budget          Actual      Ineligible       Unsupported      Total
Revenues                                                                US$
S-PMWRA-10-GR-009                                       $     4,000,000 $ 4,000,000

Total Revenues                                          $     4,000,000 $        4,000,000

                                                        US$                US$
Costs Incurred
Personnel                                                     1,825,780          1,822,685                          $             -
Field/Site Office Cost                                                                                              $             -
Travel                                                           548,056          472,969                           $             -
Team Training                                                      4,104            2,494                           $             -
Expendable Equipment                                             199,930          221,559            $      111,337 $         111,337
Non Expendable Equipment                                         768,031          754,426            $      196,180 $         196,180
Premises                                                         122,043          126,738                           $             -
Operating Expenses                                               476,229          557,917            $        6,763 $           6,763
Other Costs                                                       55,827           40,788                           $             -
                                                                                                                    $             -
(Gain)/Loss                                                                           424                           $             -

Total Direct Charges                                    $     4,000,000 $        4,000,000 $     -   $      314,280 $         314,280

Indirect Charges




Total Costs Incurred                                    $     4,000,000 $        4,000,000 $     -   $      314,280 $         314,280


Outstanding Balance (total revenue minus total costs)   $            -     $          -




                                                                                                                                  22
RMA Associates 2014
                                                                                                     SIGAR MCPA AUDIT



                                                 Mine Clearance Planning Agency
                                           SPECIAL PURPOSE FINANCIAL STATEMENT
                                              September 1 2010 to December 31, 2012


                                                                                                     Questioned Costs
                                                        Budget          Actual      Ineligible       Unsupported      Total
Revenues                                                                US$
S-PMWRA-10-GR-109                                       $     1,610,000 $ 1,610,000

Total Revenues                                          $     1,610,000 $        1,610,000

                                                        US$                US$
Costs Incurred
Personnel                                                        346,488          372,346            $       16,149 $          16,149
Field/Site Office Cost                                           357,921          165,552                           $             -
Travel                                                           106,407           90,240                           $             -
Team Training                                                      1,320              -                             $             -
Expendable Equipment                                              57,743          104,356            $          129 $             129
Non Expendable Equipment                                         528,025          643,771            $      267,275 $         267,275
Premises                                                          24,000           16,290                           $             -
Operating Expenses                                               188,096          167,108                           $             -
Other Costs                                                                                                         $             -
                                                                                                                    $             -
(Gain)/Loss                                                                                                         $             -

Total Direct Charges                                    $     1,610,000 $        1,559,663 $     -   $      283,553 $         283,553

Indirect Charges




Total Costs Incurred                                    $     1,610,000 $        1,559,663 $     -   $      283,553 $         283,553


Outstanding Balance (total revenue minus total costs)   $            -     $       50,337




                                                                                                                                  23
RMA Associates 2014
                                                                                                     SIGAR MCPA AUDIT



                                                 Mine Clearance Planning Agency
                                           SPECIAL PURPOSE FINANCIAL STATEMENT
                                                  April 1, 2011 to March 31, 2013


                                                                                                     Questioned Costs
                                                        Budget          Actual      Ineligible       Unsupported      Total
Revenues                                                                US$
S-PMWRA-11-GR-012                                       $     4,000,000 $ 4,000,000

Total Revenues                                          $     4,000,000 $       4,000,000

                                                        US$               US$
Costs Incurred
Personnel                                                     2,144,022         2,138,161                           $            -
Field/Site Office Cost                                            4,300             4,263                           $            -
Travel                                                          558,866           513,406                           $            -
Team Training                                                     2,592               -                             $            -
Expendable Equipment                                            278,189           275,684            $        1,474 $          1,474
Non Expendable Equipment                                        171,620            89,720            $       46,430 $         46,430
Premises                                                        127,227           232,911                           $            -
Operating Expenses                                              650,146           685,917                           $            -
Other Costs                                                      63,038            41,588                           $            -
                                                                                                                    $            -
(Gain)/Loss                                                                       18,350                            $            -

Total Direct Charges                                    $     4,000,000 $       4,000,000 $      -   $       47,904 $         47,904

Indirect Charges




Total Costs Incurred                                    $     4,000,000 $       4,000,000 $      -   $       47,904 $         47,904


Outstanding Balance (total revenue minus total costs)   $          -      $          -




                                                                                                                                 24
RMA Associates 2014
                                     SIGAR MCPA AUDIT




Appendix B – Management’s Response




                                                   25
RMA Associates 2014
                      SIGAR MCPA AUDIT




                                    26
RMA Associates 2014
                      SIGAR MCPA AUDIT




                                    27
RMA Associates 2014
                      SIGAR MCPA AUDIT




                                    28
RMA Associates 2014
                      SIGAR MCPA AUDIT




                                    29
RMA Associates 2014
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
